<html>
<title> - MAJOR DISASTER RECOVERY: ASSESSING FEMA'S PERFORMANCE SINCE KATRINA</title>
<body><pre>[Senate Hearing 110-704]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-704
 
  MAJOR DISASTER RECOVERY: ASSESSING FEMA'S PERFORMANCE SINCE KATRINA

=======================================================================

                                HEARING

                               before the

                AD HOC SUBCOMMITTEE ON DISASTER RECOVERY

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 17, 2008

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs


                     U.S. GOVERNMENT PRINTING OFFICE
44-128 PDF                 WASHINGTON DC:  2009
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
BARACK OBAMA, Illinois               PETE V. DOMENICI, New Mexico
CLAIRE McCASKILL, Missouri           JOHN WARNER, Virginia
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk


                AD HOC SUBCOMMITTEE ON DISASTER RECOVERY

                 MARY L. LANDRIEU, Louisiana, Chairman
THOMAS R. CARPER, Delaware           TED STEVENS, Alaska
MARK L. PRYOR, Arkansas              PETE V. DOMENICI, New Mexico
                     Donny Williams, Staff Director
                 Aprille Raabe, Minority Staff Director
                       Kelsey Stroud, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Landrieu.............................................     1
Prepared statements:
    Senator Pryor................................................     7
    Senator Stevens..............................................     8

                               WITNESSES
                        Thursday, July 17, 2008

Major General Tod Bunting, Kansas Adjutant General, Director, 
  Kansas Emergency Management and Homeland Security..............     5
Stephen Sellers, Deputy Director, Regional Operations Division, 
  California Governor's Office of Emergency Services.............     8
David Maxwell, Director, Arkansas Department of Emergency 
  Management.....................................................    11
James Bassham, Director, Tennessee Emergency Management Agency...    12
Harvey E. Johnson, Jr., Deputy Administrator, U.S. Federal 
  Emergency Management Agency....................................    22

                     Alphabetical List of Witnesses

Bassham, James:
    Testimony....................................................    12
    Prepared statement with an attachment........................    58
Bunting, Major General Tod:
    Testimony....................................................     5
    Prepared statement with attachments..........................    31
Johnson, Harvey E., Jr.:
    Testimony....................................................    22
    Prepared statement...........................................    75
Maxwell, David:
    Testimony....................................................    11
    Prepared statement...........................................    56
Sellers, Stephen:
    Testimony....................................................     8
    Prepared statement...........................................    39

                                APPENDIX

Charts referred to by Senator Landrieu...........................    85
Questions and responses submitted for the Record from:
    Mr. Maxwell..................................................    96
    Mr. Bassham with attachments.................................    97
    Mr. Johnson..................................................   103


  MAJOR DISASTER RECOVERY: ASSESSING FEMA'S PERFORMANCE SINCE KATRINA

                              ----------                              


                        THURSDAY, JULY 17, 2008

                                     U.S. Senate,  
              Ad Hoc Subcommittee on Disaster Recovery,    
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:30 p.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Mary L. 
Landrieu, Chairman of the Subcommittee, presiding.
    Present: Senators Landrieu, Pryor, and Stevens.

             OPENING STATEMENT OF SENATOR LANDRIEU

    Senator Landrieu. Good afternoon. I would like to call the 
Subcommittee on Disaster Recovery to order.
    This is a Subcommittee devoted to major disaster recovery 
assessing FEMA's performance since Hurricanes Katrina and Rita. 
I am going to begin with just a brief opening statement and I 
thank so much the panelist that are with us today and we will 
introduce you all shortly.
    I would say that since we scheduled this meeting, there has 
been a slight change in the schedule. We normally have 2 hours 
for a hearing. Today we only have an hour and 15 minutes and we 
just found out about that a few minutes ago. So I am going to 
try to be as brief as I can.
    You have all been given 5 minutes for opening statements. 
You might want to think about shortening it somewhat, but we 
want to hear your testimony and we are very grateful for what 
you have submitted and we are going to try to provide as much 
question and answer time.
    I do expect one or two other Members to join me, but we are 
going to go ahead and get started because of our limited time.
    It may come as a surprise to many people following this 
hearing that since Hurricanes Katrina and Rita we have had 169 
major disasters and over 250 Federal emergencies and fire 
emergency declarations made by the President of the United 
States which would call our system into play.
    These figures should cause us to remain vigilant that we 
have to continue to improve and strengthen our responses at the 
local, State and Federal level.
    The Stafford Act makes only two distinctions with regard to 
disaster declarations. There are emergency declarations which 
are generally reserved for the smaller events that require 
limited Federal funding for items like, debris removal, etc., 
and for assistance that does not require significant resources.
    There are also major disaster declarations of which you all 
represent some. Clearly, Hurricanes Katrina and Rita and other 
major hurricanes received that designation, which generally 
requires significant Federal aid over longer periods of time 
and include funding from public assistance as well as 
individual assistance programs. These disasters often require 
long sheltering, disaster housing programs and other forms of 
assistance.
    Today, this Subcommittee will convene its first hearing on 
a sample of the 169 major disasters that have been declared. 
While not as massive as Hurricanes Katrina and Rita in scope, 
they have had a significant negative impact on the families 
struggling to recover, the businesses that are struggling to 
recover.
    Our Subcommittee's focus will be to redesign and retool, to 
improve the response and recovery for all levels of disasters 
and to begin our work to create actually a third level which 
is, in my view, in great need for major catastrophic events.
    I will personally look forward to working with all of you 
and many others as we build a better system.
    It is my belief that the best way to continue to refine our 
responses to the small, as well as the major, as well as the 
catastrophic is to really understand the good and the bad and 
the ugly of our response and to continue to improve it as we 
can.
    So we are looking forward to hearing first from you, Major 
General Tod Bunting from the State of Kansas, who is the 
Director of the Division of Emergency Management and Homeland 
Security. You will discuss tornados that touched down in 
Greensburg, Kansas. Greensburg, a city of over 1,500 people, 
was hit by an EF-5 tornado. The tornado was 1.7 miles wide on 
the ground for 22 miles with winds up to 205 miles per hour.
    In the wake of the storm, that city was 95 percent 
destroyed with the other 5 percent being severely damaged and 
15 people lost their lives in that storm.
    The city has taken some innovative steps. We look forward 
to hearing about that today.
    Next, we will hear from Stephen Sellers, Deputy Director, 
Regional Operations from the Office of the Governor in 
California.
    I want to thank you for making the long trip from 
California, particularly because you all are in the midst of 
ongoing challenges right now. We are very interested in your 
perspective on what is happening there.
    We also will hear from David Maxwell, the Director of the 
Arkansas Department of Emergency Management, about one of the 
deadliest outbreaks of tornados in years.
    On February 5, more than 100 tornados, I understand, Mr. 
Maxwell, devastated communities in Alabama, Arkansas, Kentucky, 
Mississippi and Tennessee. I do think I will be joined by the 
Senator from Arkansas, Senator Pryor, all the other Senators 
have been invited as well.
    More than 50 lives were lost, making this one of the 
deadliest tornado outbreaks in the United States in more than 
20 years. We hope to hear from you today how some of those 
communities are faring.
    I want to particularly thank you recently for cooperating 
so closely with the State of Louisiana in returning some of 
those goods that were lost in the system back to the victims 
that they were intended to serve initially.
    And finally we will hear from James Bassham, Director of 
the Tennessee Emergency Management Agency, who will describe 
how those same storms that hit Arkansas, how they hit 
Tennessee, damaging, destroying more than 1,000 homes and 33 
victims in Tennessee.
    And after this panel, we will be hearing from our newly 
confirmed Deputy Administrator, Admiral Harvey Johnson, who 
will give his assessment from his perspective how the response 
has been for these disasters, but again, we must stay vigilant 
in our efforts to improve our response and that is the basis of 
our hearing today.
    I would like to, just before I start, call your attention 
to the posters that we have tried just to give the scope of the 
disaster.\1\
---------------------------------------------------------------------------
    \1\ The charts referred to appears in the Appendix on page 85.
---------------------------------------------------------------------------
    If you turn to the second one, the closest to me, you can 
see that of the ones we are speaking about today, the 
California wildfires, the Kansas storms, the Tennessee storms 
and the Arkansas storms while they have been significant, $8 
almost $9 million in the case of Arkansas, $12 million in 
Tennessee, $71 million in Kansas, the California wildfire to 
date is $112 million, there is just absolutely no comparison to 
the $24.9 billion in individual aid and public assistance for 
Hurricanes Katrina and Rita.
    And I know people would think that I just sort of 
manufactured the scale to make it look bad, but it really is 
that bad in terms of the scale of the disaster of Hurricanes 
Katrina and Rita relative to these others which are very 
significant.
    They are not minor disasters, the ones that you all are 
dealing with. I mean, they are classified as major disasters 
and I think that you all would agree because you are dealing 
with them, they are substantial and major; and yet you can see 
how the relative size of these really requires us to think 
about a third category which this hearing will be the first to 
kind of start pulling out what might be possible when you have, 
like on the side of Hurricanes Katrina and Rita, a truly major 
catastrophe.
    I think the other poster, I think this is a ranking of 
other storms or of other hurricanes. If you could hold that up, 
I think it is the earthquakes in Colorado, in California in 
1989, Hurricane Andrew in 1992, the North Ridge earthquake in 
1994, and Hurricanes Katrina and Rita, you can still see with 
some of the largest that we have dealt with, still Hurricanes 
Katrina and Rita are just catastrophic in scope.
    So one thing as we start this hearing, it is important for 
the country to understand there are different sizes of 
disasters. There are different tools required to deal with 
them.
    And we are looking forward to hearing from you today about 
how the tools that we have currently available, how they have 
worked for you or how they have not worked for you and how you 
would suggest we retool them or redesign them to help you next 
time based on the scope of the disasters that we face, and we 
thank you very much for being a part of this very important 
effort for our country.
    [The prepared opening statement of Senator Landrieu 
follows:]

                 PREPARED STATEMENT OF SENATOR LANDRIEU

    You may be surprised to know that since Hurricanes Katrina and 
Rita, there have been about 169 ``major disasters'' and over 250 
``Federal emergencies'' and ``fire emergency'' declarations made by the 
President of the United States. These figures are astounding and they 
are a reminder that at any given time, we are only a moment away from 
the next disaster or catastrophe.
    The Stafford Act makes only two distinctions with regard to 
disaster declarations. There are ``emergency declarations'' which are 
generally reserved for smaller events that require Federal funding for 
of debris removal and other assistance that generally won't require 
significant resources.
    There are also ``major disaster'' declarations, which generally 
require significant Federal aid, and include funding from the Public 
Assistance and the Individual Assistance programs, These disasters 
often require long term sheltering, disaster housing programs, and 
other forms of assistance that are required over a period of time. 
Today, this Subcommittee convenes its first hearing on a sample of the 
169 ``major disasters'' that have been declared by the President since 
Katrina. While they are not as massive as Hurricanes Katrina and Rita 
in scope, they have had a monumental impact on the families who have 
worked to rebuild their lives in their wake.
    Our Subcommittee's focus throughout its existence has been to 
highlight the need to improve the response and recovery tools for all 
levels of disasters: emergencies, major disasters, and a third 
category, which I will personally work to put in place, catastrophes. 
It is my belief that the best way to understand the good, bad, and ugly 
of responses and recoveries is to look at case by case examples. Today 
we will hear from emergency managers from states that have experienced 
major disasters in the recent past.
    First, we will hear from Major General Tod Bunting, of Kansas' 
Division of Emergency Management and Homeland Security. He will discuss 
the horrific tornado that touched down in Greensburg, Kansas in May of 
2007. Greensburg, a city of over 1,500 people was hit by an EF-5 
tornado. The tornado was 1.7 miles wide and was on the ground for about 
22 miles with winds of up to 205 miles per hour. In the wake of the 
storm, 95 percent of the city was confirmed to be destroyed, with the 
other five percent being severely damaged. 15 people perished in the 
storm.
    Since then, the City has taking some innovative steps in the road 
to recovery. Rather than a traditional rebuild, the City worked with 
groups to rebuild smarter and better. I will ask Major General Bunting 
to tell us more about those efforts.
    Next, we will hear from Stephen Sellers Deputy Director Regional 
Operations Division, California Governor's Office of Emergency 
Services. I want to thank you especially for making the trip form 
California, particularly during a time when California is facing 
another round of threats from wildfires. Thank you for joining us and 
God bless the people of California as the face these fires once again.
    Mr. Sellers will share his assessment of the joint Federal and 
State collaboration during the October 2007 California Wildfires at 
least 320,000 evacuees were housed in temporary shelters, including 
more than 11,000 at Qualcomm Stadium in San Diego. When firefighters 
finally gained the upper hand, 1,676 homes succumbed to the flames, and 
10 people had perished.
    We will then hear from David Maxwell, the Director of the Arkansas 
Department of Emergency management about one of the deadliest outbreaks 
of tornadoes in years. On February 5th, more than 100 tornadoes 
devastated communities in Alabama, Arkansas, Kentucky, Mississippi, and 
Tennessee. More than 50 lives were lost making this the deadliest 
tornado outbreak in the United States in more than 20 years.
    The tornadoes hit Arkansas particularly hard. One of the tornadoes 
tracked 123 miles, which is the longest track on record in Arkansas 
since 1950. The tornadoes destroyed as many as 300 homes in Arkansas. 
The tornadoes claimed the lives of 14 Arkansans.
    James Bassham, Director of the Tennessee Emergency Management 
Agency will describe how the same storm system that ravaged Arkansas 
moved westward towards Tennessee. Several tornadoes touched down 
devastating areas of Middle Tennessee in the late evening hours. The 
Tennessee tornadoes damaged or destroyed 1,138 homes. On March 12, the 
last victim died at a rehabilitation center as a result of injuries 
sustained during the storm. The death toll for the February tornadoes 
in Tennessee reached 33.
    Last, the newly confirmed, Deputy Administrator of FEMA, Admiral 
Harvey Johnson, will give his assessment of FEMA's progress in the wake 
of Katrina. Admiral Johnson has often come before this committee to 
explain why, in his view FEMA is better able to respond to those 
disasters. We will ask him to provide specific examples of the ``new 
FEMA'' and how it has handled the disasters experienced by the 
emergency managers before us today.
    I want to caution that we must stay vigilant in our efforts to 
improve the disaster response and recovery system in this country. I 
have created these graphs based on FEMA numbers to illustrate one 
point: FEMA's and response and recovery efforts to major disasters, 
such as those we are dealing with today, do not give us a good 
indication of FEMA's capabilities during a catastrophe.
    We use a bar graph here to show the magnitude of a catastrophe 
compared to major disasters. This compares the Public Assistance and 
Individual Assistance program dollars spent from the four declared 
disasters discussed today, with that of Hurricanes Katrina and Rita. I 
show this graph not to belittle the dramatic impact of an EF-5 tornado, 
or of hundreds of homes lost in wildfires, but to illustrate the true 
challenge that we could be up against should another catastrophe 
strike.
    In addition to assessing the performance of FEMA and hearing the 
stories of the people who suffered through these events, I hope this 
hearing will demonstrate the need for a disaster response and recovery 
system that is well equipped to handle all levels of disasters, 
emergencies, major disasters, and catastrophes.
    I have instructed my staff to draft legislation to amend the 
Stafford Act to create a third declaration--catastrophe declaration--
that will free the President and FEMA from the current limitations of 
the Stafford Act. I will not stop until we effectively redesign the 
Stafford Act so that the government has what amounts to a tool box at 
its disposal that will allow it to construct a response and recovery 
that fits any given disaster.
    I thank our witnesses and look forward to hearing your statements 
and asking you some questions.

    Senator Landrieu. So with that, General, can I turn it over 
to you for your remarks.

  STATEMENT OF MAJOR GENERAL TOD BUNTING,\1\ KANSAS ADJUTANT 
  GENERAL, DIRECTOR, KANSAS EMERGENCY MANAGEMENT AND HOMELAND 
                            SECURITY

    General Bunting. Madam Chairman, I am General Tod Bunting, 
the Adjutant General of Kansas, and I thank you for this 
opportunity to speak on behalf of all of the emergency 
management professionals in Kansas and our volunteers.
---------------------------------------------------------------------------
    \1\ The prepared statement of General Bunting with attachments 
appears in the Appendix on page 31.
---------------------------------------------------------------------------
    You mentioned our tornado in Greensburg which was an EF-5. 
Twenty-two tornados were also reported in Kansas on that night 
on May 4. The storms resulted in 15 fatalities statewide, 12 in 
Greensburg. There were 95 percent damage of businesses and 
homes.
    With the exception of the Kiowa County Courthouse, all 
government-owned facilities were destroyed including the city 
hall, the county hospital, police, fire and maintenance, all 
three schools, and all seven churches were destroyed.
    FEMA Region Administrator, Dick Hanjie, contacted me just 
minutes after being notified of the devastation. He continued 
his contact with me throughout the evening and the next day and 
arrived in Greensburg with me within 24 hours after the storm 
with Federal coordinating officer Mike Hall, and I believe that 
was a significant effort.
    They brought considerable communication assets and the 
efficient logistic teams, all of which arrived within 36 hours 
of the storm.
    I would particularly note that all Federal, State, county 
and volunteer partners worked in a unified command structure.
    We would like to give special thanks to the Small Business 
Administration, the Army Corps of Engineers, the Weather 
Service, which was instrumental in giving advance notice to the 
people in Greensburg, and the Environmental Protection Agency, 
who all did a fabulous job with us in Greensburg. And we would 
also want to highlight the recognition to Ameri-Corp which 
coordinated the thousands of volunteers.
    With major damage in 23 counties, we did have a Joint Field 
Office but I want to note that FEMA did not lose sight of the 
22 other counties that were impacted by this storm and received 
good service.
    The U.S. Forestry Service established a 300-person base 
camp in Greensburg because there was no where to stay within 40 
miles of the storm.
    FEMA direct housing operations housed 84 families in travel 
trailers or mobile homes and so within 10 days we no longer had 
people in shelters or mass care.
    There was no rental housing available, and as such, a group 
site was constructed just outside the city limits of Greensburg 
with 225 families occupying mobile homes.
    If Greensburg was to recover, it was critical to allow 
residents to remain close to home, instead of relocating to 
distant urban areas. We believe that was a success.
    Through the public assistance program, a total of 430,000 
cubic yards of debris were removed from the city of Greensburg. 
I would note that as part of how people in Greensburg 
recovered, they refer to the landfill as old Greensburg and the 
city now is new Greensburg.
    An area for improvement is some inconsistencies exist 
within the public assistance program. At times inconsistencies 
in policies and cost estimating formulas have created confusion 
on the part of local applicants in the State, and in some 
instances disaster payments or actual repairs are being delayed 
until such matters are resolved. This was the case with the 
Kiowa County Courthouse.
    I would like to note a great success with FEMA's long term 
community recovery program which helped established a community 
process and jump-started our redevelopment. I have a copy of 
that plan if you would like to see it.
    Together, citizen civic groups, business owners, local, 
State, and Federal officials, and the long-term recovery 
planning team developed a sustainable comprehensive plan that 
serves as a vision for redevelopment.
    An area for improvement is in some recovery areas progress 
was slowed because of lack of viability of various programs.
    It is our recommendation that Federal agencies having a 
role in recovery, such as the Departments of Commerce, Labor 
and Agriculture, be co-located in the Joint Field Office to 
provide guidance to State and local leaders.
    The establishment of a business incubator was not 
accomplished in a timely manner.
    Another example, USDA has been a strong partner in the 
recovery effort, funding portions of the city's water tower, 
courthouse and single family homes; but as recovery efforts 
proceeded, these USDA partnerships were unknown to the State 
and we were not aware of the various programs they bring to 
bear.
    So our suggestion is perhaps if they were co-located also 
with FEMA and State officials and attended the briefings, 
information could have been more readily shared and 
coordination of benefits would have been more seamless.
    In the last 18 months, Kansas has had five major disaster 
declarations, and our close relationship with Mr. Hanjie and 
the FEMA VII staff has proven invaluable.
    The devastation in Greensburg is one of the worst in our 
history leveling our entire community. Extraordinary efforts 
were required not only to respond and save lives but also to 
rebuild an entire city, which you mentioned many times, over in 
Louisiana and Mississippi.
    But I am pleased to report that FEMA and our Federal 
partners responded quickly and with a positive can-do attitude. 
Certainly there remains much work to be done to rebuild an 
entire city, but the resiliency of the people of Greensburg who 
I have become very close to, the thousands of volunteers 
coupled with the strong support of the State of Kansas and our 
Federal partners has Greensburg well on the way to being a 
model and, in fact, one of the Nation's first ``Green Cities.''
    Thank you.
    Senator Landrieu. Thank you very much.
    I am pleased to be joined by my Ranking Member Senator Ted 
Stevens from Alaska, and one of our most active Members of our 
Subcommittee, Senator Pryor from Arkansas.
    I have asked them if they have any opening remarks or 
something they would like to say briefly before they may have 
to step out.

               OPENING STATEMENT OF SENATOR PRYOR

    Senator Pryor. I will just put a statement in the record.
    Thank you.
    [The prepared statement of Senator Pryor follows:]

                  PREPARED STATEMENT OF SENATOR PRYOR

    Thank you Chairman Landrieu.
    First, I want to thank you and Ranking Member Stevens for holding 
this hearing. I appreciate the disaster recovery work this subcommittee 
has done. I think that the two of you have shed light on and helped to 
improve many important aspects of the disaster recover process.
    I also appreciate the witnesses for being here today. I want to 
especially thank Dave Maxwell, the Director of Emergency Management for 
my home State of Arkansas. Arkansas has been dealt a tough hand in 
terms of natural disasters this year and Dave has done a tremendous job 
helping get Arkansas through it. I want to publicly thank him and his 
staff for that.
    The southeast and mid-west have had an overly active severe weather 
season. We've seen storms, tornadoes and flooding at almost 
unprecedented levels. In Arkansas, 62 of our 75 counties have been 
included in disaster aid requests--and many of these counties have been 
included in more than one request. Twenty six people in Arkansas have 
lost their lives as a result of severe weather and over 13,000 people 
and households have applied for assistance. And I'm only referring to 
Arkansas here.
    With disasters that are this devastating, this far-reaching, and 
this frequent, it's crucial that we take time to assess the response of 
the federal government. There are undoubtedly some lessons learned here 
that can help with future disaster response and even help with the 
ongoing recovery efforts.
    Today, I'm particularly interested in hearing about coordination 
between the Federal Government and State governments. I think a lack of 
communication and coordination has been a significant barrier to quick, 
effective response in the past.
    I am also interested in hearing about disaster housing. With the 
exception of the loss of life, losing a home is one of the most 
devastating outcomes of severe weather. And we've seen a lot of that 
this year. I hope we have a practical and workable strategy in place to 
get victims in safe housing immediately after a storm strikes. Then we 
need to be sure that families have the necessary assistance to rebuild 
or repair their homes.
    In terms of temporary housing units, I want to talk about a bill 
that I introduced that recently passed out of this committee with 
unanimous support. It is called the FEMA Accountability Act. It 
requires FEMA to do an assessment of the number of temporary housing 
units necessary to keep on hand for future use in disasters, come up 
with a plan to get rid of the excess units--by transferring, selling or 
dismantling, then implement that plan and report to Congress. I know 
that FEMA has self implemented much of this legislation. I hope you, 
Admiral Johnson, can give the subcommittee an update on that work.
    If the witnesses have suggestions for Congress on how we can 
facilitate quicker, more effective disaster response, I am certainly 
interested in hearing those suggestions.
    With that, I'll conclude my remarks. Again, I want to thank 
everyone for being here and thank the Chairman and Ranking Member for 
taking the lead on this important issue.

    Senator Landrieu. Thank you, Senator.
    Senator Stevens. I, too, ask that my statement be put in 
the record. I am sorry to be late.
    [The prepared statement of Senator Stevens follows:]

                 PREPARED STATEMENT OF SENATOR STEVENS

    Thank you, Madam Chairman, for holding this hearing.
    If we learned anything from the tragedy of Hurricane Katrina, it 
was that we were in desperate need of better planning and response 
capabilities for major disasters.
    Alaska has more natural disasters than any other state, including 
earthquakes, volcanoes, floods and severe storms.
    Alaska also has many villages on its coast eroding away at an 
astronomical rate due to severe storms.
    We have seen many major disasters hit the United States in the 
years since Katrina. Tornadoes have swept through our country, and more 
recently, floods have destroyed homes and important farm land.
    It is important that we take the time to look and see what 
improvements have been made to our disaster response systems so that we 
can be better prepared for future events.
    I look forward to today's testimony and hope that significant 
improvements have already been made in FEMA's ability to respond to 
major disasters.

    Senator Landrieu. Without objection, that will be done. Mr. 
Sellers.

  STATEMENT OF STEPHEN SELLERS,\1\ DEPUTY DIRECTOR, REGIONAL 
OPERATIONS DIVISION, CALIFORNIA GOVERNOR'S OFFICE OF EMERGENCY 
                            SERVICES

    Mr. Sellers. Thank you, Chairman, Senator Stevens, and 
Senator Pryor.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Sellers appears in the Appendix 
on page 39.
---------------------------------------------------------------------------
    I am Stephen Sellers, Deputy Director for Regional 
Operations in the California Governor's Office of Emergency 
Services. I am here today to talk about our experience with 
FEMA and our response and recovery efforts due to the 2007 
wildfires we experienced a few months ago.
    I would like to start out by saying, although we are a 
large State, very capable State, these firestorms, as the 
recent storms we are having, firestorms we are having now, 
greatly challenge us at the local, State, and Federal level, 
indeed.
    We have a long history in California of strong emergency 
management systems. We invented the incident command system in 
California in the late 1970s. We instituted something called 
the standardized emergency management system after the 1991 
Oakland Hills fire which defined fundamentally how all agencies 
can work together in a multi-jurisdiction response in the State 
and we certainly have strong mutual aid systems.
    However, these fires required a great deal of support not 
only throughout the State from our local governments and our 
State agencies, but also nationally and internationally.
    We had roughly 31 States assisting us either through the 
National Interagency Fire Center or through mission assignments 
through FEMA and we also had support from Canada and Mexico.
    It was very much needed and very much appreciated and I 
think that certainly one of the things we are noticing is the 
emergency management assistance compact is certainly helping us 
to get the resources we need in a more coordinated way from our 
State friends across the country.
    As you will see in the testimony, the fires themselves, 
there were 24 fires affecting seven counties in southern 
California in which over a half-million acres burned and some 
10 fatalities and 2,776 residences were lost. It is hard to pin 
down, but we had roughly at least 300,000 to 500,000 evacuees 
in this disaster which put great pressure on the emergency 
management systems in terms of care and shelter operations 
which is not really normal and that is kind of a scale in a 
firestorm. We did not even get a 10th of a percent of that in 
these recent storms, for example.
    In terms of recovery, we have had about $10 million in FEMA 
housing and $4 million in other needs assistance as a result of 
these fires coming to the State, $1 million in low interest 
loans from the Small Business Administration. Roughly about 
7,700 housing inspections were conducted with just over 1,000 
pre-placement interviews to try to find temporary housing 
solutions for the victims.
    More than $141 million in public assistance grants 
representing 199 eligible requests for public assistance have 
been identified and this is one area that I echo my counterpart 
from Kansas is this whole process with project work sheets and 
reimbursement.
    We have worked side by side with FEMA in this disaster to 
try to identify problems and minimize any kind of appeals post-
disaster. So far we have actually obligated over $98 million in 
Federal funds to State and local agencies as a result of the 
process we established with FEMA in these firestorms.
    I would add too that if you look at 2003 which was even 
worse for us in terms of the devastation and impact on our 
citizens in California that we were able locally at the State 
level through the Hazard Mitigation Grant Program funded 
through FEMA, a lot of local jurisdictions did take the 
responsibility to enact hazard mitigation efforts, changing 
business codes and practices, green belts and those sorts of 
activities.
    The full story is not in yet, but we have certainly 
documented a number of cases where in these firestorms, those 
mitigation efforts proved very effective. So going forward with 
our $41 million as a result of these 2007 firestorms and hazard 
mitigation grant program, we are certainly going to be able to 
impact even greater the risk that we need to lower in the State 
in terms of our wildland-urban interface.
    I would like to, since we have a challenge with time, just 
give you some major conclusions that we have in terms of what 
we have been asked to present today.
    First of all, there was no discounting the fact that 
without strong local and State capabilities, no disaster can be 
well managed; and certainly, as we look forward to funding 
through things like the Emergency Management Performance Grant 
that local capability, all disasters are local but certainly 
need a lot of regional, State and Federal support. Without 
that, you really have a challenge getting in and making it 
work. So I want to say great job to some of our cities and 
counties in California for these firestorms.
    If you look at Qualcomm, for example, that operation went 
on there which was really going to be an evacuation center, 
ended up more of a shelter site as well as the Del Mar 
Fairgrounds and our working with FEMA to get cots and blankets 
in there as quickly as possible. I think that local capability 
and certainly the systems we put in place were effective.
    Strong leadership and staff capabilities at FEMA Region IX 
made a tremendous difference. I think the regional level of 
support, as you have heard already, is critical to success in a 
disaster.
    The Federal coordinating officer's qualities, abilities, 
training and the team he put together was also a huge 
difference.
    Going forward, I hope that the Federal coordinating 
officers who are part of all disasters are as strong as Mike 
Hall was in this one for us, a great partner.
    The use of Incident Command System under NIMS was certainly 
a great plus for us. I think as FEMA goes forward with the 
Federal agencies in taking on the concepts and principles of 
the Incident Command System will be greatly benefited across 
the Nation.
    The other part is establishment of joint task forces.
    Senator Landrieu. Try to wrap it up.
    Mr. Sellers. Yes. We established housing, tribal and debris 
management task forces. We had problem areas where we brought a 
collection of State and Federal agencies together to focus on 
problem solving.
    I think as you move forward in catastrophic planning, that 
kind of focus in a task force in a collaborative way is going 
to make a huge difference in how we manage disasters.
    And finally, we are working with FEMA Region IX to do 
catastrophic planning around earthquakes. We have a Bay area 
plan in place that is just about ready to get out and work on. 
We hope to move that effort to Southern California.
    But basically our major point to conclude is if this is the 
new FEMA and we hope it is, we really want a lot more of it.
    Senator Landrieu. Thank you, Mr. Sellers. Mr. Maxwell.

STATEMENT OF DAVID MAXWELL,\1\ DIRECTOR, ARKANSAS DEPARTMENT OF 
                      EMERGENCY MANAGEMENT

    Mr. Maxwell. Chairman Landrieu, Senator Stevens, and 
Senator Pryor, thank you very much.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Maxwell appears in the Appendix 
on page 56.
---------------------------------------------------------------------------
    I am David Maxwell, Director and State Homeland Security 
Adviser for the Arkansas Department of Emergency Management. 
Thank you for the opportunity to speak to the Subcommittee 
today.
    I am here to discuss FEMA's response to the three 
Presidential declarations in my State following the tornadoes 
and flooding of February 5 and beyond, the tornadoes and 
flooding that occurred March 18-28 and the tornadoes and 
flooding that occurred on May 2 and May 10.
    First, let me say I was very pleased with FEMA's response 
to the first two declarations. During these two disasters, I 
thought FEMA displayed a proactive response in addition to some 
creative out-of-the-box thinking. One example was the use of 
helicopters in conducting preliminary damage assessments which 
tremendously sped up the entire process.
    However, this was not the case for the third disaster in 
which FEMA's response took much longer. For example, the date 
of the first request for assistance, individual assistance 
only, was May 6. While the second request for assistance, 
individual assistance and public assistance was made May 14, 
the Federal declaration did not occur until May 20, delaying 
Federal assistance by as much as 14 days from the first 
request.
    We initially asked for only individual assistance to speed 
the process as we felt like the individual assistance request 
was certainly valid because we had over 250 homes either 
destroyed or with major damage. This is especially true when 
you consider that some of the counties impacted had been 
declared in both the previous disasters.
    I think direct dialogue with the reviewers could ensure 
questions are answered and the process stays on track, averting 
such unnecessary delays in assistance.
    Arkansas has State disaster programs for events that are 
within our capabilities to manage. When an event reaches a 
magnitude that warrants requesting a Presidential declaration 
and assistance is delayed in the declaration process, we face 
the difficult decision whether to implement the State disaster 
programs or not.
    We feel like having the State program is the right thing to 
do. It is the important thing to do for our citizens. Yet 
sometimes we feel we are penalized for having those programs 
and we need to work on that and work through those issues.
    In summary, FEMA's response to our disasters was much 
improved. We still feel there are some additional improvements 
that can be made and stand ready to assist Administrator 
Paulison in achieving the goals he has set forth for FEMA's 
response and recovery efforts.
    We all understand we are working toward the same ultimate 
goal and that is to better serve disaster victims. As long as 
we keep that basic purpose in mind, we will be able to work 
together to strengthen the system and work through problem 
areas as identified.
    Thank you very much for the opportunity to speak on this 
important subject.
    Senator Landrieu. Thank you, Mr. Maxwell. Mr. Bassham.

 STATEMENT OF JAMES BASSHAM,\1\ DIRECTOR, TENNESSEE EMERGENCY 
                       MANAGEMENT AGENCY

    Mr. Bassham. Thank you, Madam Chairman, Senator Stevens, 
and Senator Pryor.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Bassham with an attachment 
appears in the Appendix on page 58.
---------------------------------------------------------------------------
    My name is Jim Bassham. I am the Director of the Tennessee 
Emergency Management Agency.
    I appreciate this opportunity to appear before the 
Subcommittee. Governor Phil Bredesen has asked that I convey 
his personal thanks for your interest in the State of 
Tennessee's perspective on FEMA's response to our disasters in 
Tennessee. On February 5, it took 33 lives.
    I would like to brief you on the sequence of events that 
took place in Tennessee on February 5 and the resulting 
response and recovery efforts which officially ended for us on 
April, 25, 2008 when FEMA closed the Joint Field Office in 
Nashville, Tennessee.
    The Tennessee Emergency Management Agency has regional 
offices in Jackson, Tennessee, Nashville and Knoxville.
    On that afternoon of February 5, conference calls were 
conducted with each of our three regional offices, the National 
Weather Service that serves each of those regions and the 
county emergency managers in those regions in each county to 
ensure that they were alerted to what was going on, the threat 
that was imminent and that they had taken whatever precautions 
that were necessary.
    I would add that this is a routine practice for us in 
Tennessee when a threat appears imminent.
    At 5:48 p.m. on February 5, our State Emergency Operations 
Center received confirmation from the Memphis/Shelby County 
Emergency Management Center that a tornado had, in fact, 
touched down in South Memphis.
    Our State on-call officer notified me of the Shelby County 
weather event, and at 6:30 p.m., I ordered the State Emergency 
Operations Center (SEOC) activated, and by Tennessee State law, 
the activation of that operations center declares a state of 
emergency in our State.
    I responded to the operations center and notified Governor 
Bredesen's staff and Major General Gus Hargett, the Adjutant 
General. I then called Phil May, the FEMA Region IV 
Administrator in Atlanta. I briefed Mr. May on the weather 
conditions and alerted him that our operations center was 
activated at a Level Three.
    Mr. May asked if I would like a FEMA liaison deployed, and 
one was in place within 2 hours. As it turned out, FEMA had a 
liaison representative that lived in Norcross, Tennessee. They 
almost beat me there to the SEOC.
    FEMA also provided an incident response support team. That 
team responded immediately and they showed up in our operations 
center at 3 o'clock the next morning, out of Atlanta. They were 
immediately deployed to Macon County which was our hardest hit 
county up on the north of Nashville on the Kentucky border.
    Over the next 48 hours, the State responded to the needs of 
the local jurisdictions through local mutual aid and State 
resources. No out of State assistance was required.
    Senator Landrieu, I think that the distinction you make 
between a disaster and a catastrophe is probably the most 
important thing that we need to be thinking about right now 
because we did not really need any outside help; but if we had 
the New Madrid scenario, we will all need outside help and I 
want to speak to that again in just a second.
    FEMA deployed a Federal coordinating officer to begin the 
process of setting up a Joint Field Office which was 
operational on February 11, which was about 5 days after the 
tornado, and I thought that was really pretty good. That was as 
soon as we needed anything. In fact, they got there a little 
before we were ready for them.
    A preliminary damage assessment was far enough along that 
Governor Bredesen requested a presidential disaster to be 
declared. He requested this at 5:23 p.m. on February 7, and we 
were notified at 10 p.m. on that same evening that the 
President had declared five counties. This number would 
eventually increase to a total of 19 counties.
    During the subsequent days, weeks and months, FEMA was a 
full partner with the State as we worked through the myriad of 
challenges associated with both public and individual 
assistance.
    The Joint Field Office performed admirably under Gracia 
Szczech as the disaster field offices were set up to serve our 
citizens. As I mentioned, the Joint Field Office closed on 
April 25, 2008.
    FEMA responded rapidly with appropriate assets and worked 
with the State and local officials to achieve the very best 
outcomes under the circumstances. I have no negatives to report 
on FEMA's response and recovery.
    I will say that there was an issue with the manufactured 
housing that we had to bring, and it dealt with the 
formaldehyde levels in those units--and that became a little 
contest of wills between the Federal Government and the States 
with the insistence that the States set a level below which 
they would accept those units, and I believe that that is a 
Federal responsibility because they own those units.
    My time is up, but I would like to say one other thing. I 
am also the chairman of the Central United States Earthquake 
Consortium (CUSEC) which is a consortium of eight States that 
revolve around the New Madrid scenario, the New Madrid Seismic 
Zone in Arkansas. My friend here is from another one of those 
States.
    FEMA has, for the last couple of years, been funding a 
Catastrophic Planning Initiative through CUSEC to the States 
for some important catastrophic planning around that scenario 
and I think it is really important that planning effort 
continue and we will be prepared. Tennessee will be prepared in 
about another month to provide you with a copy of a 
catastrophic plan if you want to see what a good one really 
looks like.
    Senator Landrieu. We will absolutely look forward to 
receiving that and I am very happy to get that information and 
we look forward to working with your consortium as we build a 
better system.
    As my colleagues were coming in, I wanted to just call 
again to their attention that it may be a surprise, Senators, 
but we had 169 major disasters declared since Hurricanes 
Katrina and Rita, and 250 Federal emergencies and fire 
emergencies declared.
    This is just a sampling of some of them, but the scale of 
these really varies and that is what our Subcommittee is really 
charged with which is coming up with the right tools for the 
right size disasters so that we can improve it at every level.
    So with that, I am going to just do a 5 minute round of 
questioning and I will begin and then turn it over to my 
colleagues.
    General Bunting, in your testimony you said one area that 
FEMA could improve was with the public assistance program. You 
stated in your testimony ``inconsistencies and policies and 
cost estimating formulas have created confusion on the part of 
local applicants in the State and in some instances disaster 
payments are being delayed until such matters are resolved.''
    Could you go into a little bit more explanation of what you 
meant, maybe give us a few examples.
    General Bunting. Yes, ma'am. We have several examples, a 
lot of them recently with ice storms, but in this particular 
case, a lot of times it centers around the insurance proceeds 
and just the difference of what is or is not going to be paid 
and the different estimates of the extended damage there.
    Public assistance sometimes has a turnover in personnel; 
and when that happens, sometimes different people come in and 
take a different approach to things.
    I think overall public assistance has gotten better, but 
there is still the challenge of lengthy debates about who is 
going to pay for what and as such the net result is work does 
not get done.
    Senator Landrieu. Was the turnover on the State's end in 
this case or the turnover on FEMA's end?
    General Bunting. No. It is the turnover on FEMA's staff.
    Senator Landrieu. We experienced that same problem 
significantly in Hurricanes Katrina and Rita and we have been 
leaning very hard on FEMA to correct that. And in a completely 
different area, but just like in our child welfare system we 
are trying to get one judge per family instead of three 
different judges looking at the same family's case, try to move 
it through by keeping the same judge connected to that family.
    That is the same kind of system we are hoping FEMA will set 
up that the first assessment person that shows up stays with 
that program until it is resolved because otherwise it just 
becomes a rotating case.
    Since the storm, I think all of these disasters were the 
part where there was one unit of government, in this case the 
city of Greensburg that was virtually completely destroyed, a 
small city but nonetheless it was completely destroyed.
    Can you explain a little bit more about how under current 
FEMA rules, the mayor of that town, with your help, is 
rebuilding a new city on either higher ground or better 
ground--new buildings? How are you using the current FEMA rules 
and regulations to actually accomplish that because we are 
still having a great deal of difficulty?
    General Bunting. Yes, ma'am. It is also Kiowa County, 
Greensburg was the country seat, so we lost all government for 
the city of Greensburg and it also was Kiowa County so we lost 
everything in that county.
    We are fortunate in that Greensburg is not in a flood plain 
and that can significantly complicate rebuilding because you 
cannot rebuild in an area that was a flood plain. We have that 
challenge right now in the City of Chapman, Kansas, which some 
of the homes that were destroyed have to be elevated. The 
criterion changes.
    We think that the FEMA long-term recovery team, though, 
that came to town and only left 4 or 5 months ago is a great 
success. So that aspect of the new FEMA that brings that long-
term recovery team in and works side by side with community has 
been very successful.
    Senator Landrieu. And you say that because you were not in 
a flood plain it was easy to make some quick decisions about 
how to rebuild, and the schools did not have to rebuild on the 
same site. They could rebuild on different sites. You said you 
lost three schools?
    General Bunting. Yes. Now, it turns out in the long-term 
recovery plan, they may or may not rebuild on the same site. If 
there is a silver lining, it gives you an opportunity to 
rebuild your town and maybe relocate some things that you would 
not have otherwise because you would have had to have done the 
demolition on your own, but because there is no other 
significant environmental challenges for Greensburg versus 
other communities that are destroyed, I believe that was an 
advantage that we had for Greensburg.
    Senator Landrieu. Mr. Sellers, it was reported that some 
California residents were forced to wait for months for mobile 
homes. According to an AP story on February 17, California 
wildfire victims waited for months there significantly because 
the manufactured homes were too difficult to move up winding 
roads to remote mountain tops.
    How did you all deal with that? What was the outcome? And 
do you have a better suggestion for how we help house victims 
or disaster survivors on mountain tops in the future?
    Mr. Sellers. Yes, Senator. One of the task forces I 
mentioned we established was the housing task force and it 
quickly became an issue, first of all, because the travel 
trailers were taken off the table in the middle of our disaster 
because of the formaldehyde problem. Those would have worked in 
the situation you are talking about. It ended up being some 25 
some odd individuals that we really had no solution for 
ultimately.
    It was handled in a myriad of ways. Certainly in the tribal 
lands, a couple of the tribes that were severely affected who 
were not a part of that calculation, there was a donation made 
for other smaller units from another tribe.
    What FEMA did, I think in their favor actually, was to try 
to add more money for site preparation, to get the sites 
capable of handling the larger units. The pads were too small. 
Some places, the infrastructure was not there to begin with in 
terms of power or under-powered power as well as sewage.
    They added, I forget the exact number, but extended like an 
extra $30,000 per site to try to get those sites available. But 
again, a lot of these larger units could not get up the road.
    So ultimately they worked through that process and some 
individuals just basically are out of luck in that regard.
    So what I would really urge focus on is if we have a 
catastrophic earthquake in a large metropolitan area, a one-
size solution is not going to work. And so we really need to 
work forward, go forward with the Federal Government to talk 
about reasonable housing options when we do lose a significant 
level of our housing stock.
    We did what we could in the situation to be adaptable and 
ultimately a few people did not get what they needed, and 
again, some donations and other means helped others out.
    But I think in going forward, certainly if a New Madrid 
affects a sizable amount of housing stock in the Midwest or 
certainly in Southern California, the Bay area, we will be very 
challenged in the area of housing if we only have one solution.
    Senator Landrieu. And I think it would make sense, as I 
conclude, to give people and communities choices that are cost-
effective, common sense choices for housing and not try to 
provide just one solution, take it or leave it when it really 
depends if you live in a flood plain or not, if you live on the 
top of a mountain or not, if you live in a rural area or not, 
or if you live in an urban area. I mean, it seems to me that 
just common sense for us to provide cost-effective choices and 
options and I thank you for that testimony.
    Senator Pryor.
    Senator Pryor. Thank you, Madam Chairman.
    Mr. Maxwell, thank you for being here today. I should have 
said this in the beginning, but you have been a great role 
model I think for all of the emergency folks around the country 
and you have had your hands full this year.
    If you do not mind, just briefly tell the Subcommittee the 
various disasters we have had just this calendar year because I 
know we have had floods, tornados, you name it.
    Just kind of give the general month and what you have gone 
through this year.
    Mr. Maxwell. Well, we have had the three disasters that I 
mentioned. It started in February, actually it started in 
January. We had a round of tornadoes that ended up being a 
State-declared disaster and unfortunately some of those 
counties have been impacted three, four, five times this year. 
So it has been a major challenge for our local governments.
    The first round of tornadoes, one tornado stayed on the 
ground for 123 miles. That is almost unprecedented for us. I 
cannot find a record of one being on the ground that long and 
you have seen the damage so you are well aware of the impact of 
that tornado.
    The flooding in March just continued and continued and 
continued. As rivers got up, they just would not go down. But 
it seems most of our damage was in the hill country that is 
flash flooding, that did tremendous amounts of road damage to 
county roads and the recovery pace has been pretty slow in a 
lot of areas. Just assessing the amount of damage that has 
taken quite a while.
    Senator Pryor. Let me ask about your interaction with FEMA. 
I know that normally you probably deal with the FEMA regional 
staff. But have you ever had any dealings with the DC staff? Do 
they ever come to a State like Arkansas to see it for 
themselves?
    Mr. Maxwell. Administration Paulison has been to the State, 
I think twice, maybe three times this year. We talk on a fairly 
regular basis. I was here last week or the week before working 
on the integrated planning system that FEMA is working on. And 
so there is quite a bit of contact nationally as well as I 
cannot stress the importance of the regions and the good 
working relationship that we have with Region VI.
    Senator Pryor. What about besides the director of FEMA? I 
am glad he has come because he has been great this year, but 
what about the other decisionmakers in FEMA? Do they ever, as 
far as you know, get out of the Washington office?
    Mr. Maxwell. Not to my knowledge, and frankly, I think that 
is an important point. Even the people that are reviewing the 
declaration request, if they have not gotten out and met 
disaster victims, I do not think they have a feel for the 
importance of what they are doing. And getting people out of 
Washington, getting people to actually see victims, meet 
disaster victims is incredibly important. It is one of the 
things that I make sure we do with all of our staff.
    All of my staff has been out working in these disasters and 
it gives me better employees back because they understand 
whether they are working on grants, whether they are working on 
disaster programs, it all boils down to working with disaster 
victims or for disaster victims.
    Senator Pryor. I agree with that. On a related topic, you 
mentioned this year we have had three Federal disasters in 
Arkansas plus some State disasters as well. Of these three that 
you are talking about you have been very pleased with FEMA with 
two but not on the third.
    Could you tell us a little bit about the difference and 
what made the third one different?
    Mr. Maxwell. It was a surprise to me. I thought we had a 
very clear-cut case for an individual assistance declaration. 
We did a preliminary damage assessment and had over 250 homes 
either with major damage or destroyed.
    I felt like that was a major disaster. If we had not had 
the two disasters--coming on the heels of the other two 
disasters, it really puzzled me when we got word that we needed 
to get the public assistance request in and those preliminary 
damage assessment figures along with the individual and ask for 
it all at once to make it a clear-cut case.
    Senator Pryor. All right. Let me ask one last question, if 
I may, Madam Chairman.
    Mr. Maxwell, you have mentioned this in your testimony, but 
also, General Bunting, you did as well and so let me direct a 
question related to floods to you, General Bunting.
    One of the things that we have been working on in the 
Subcommittee is this Predisaster Mitigation Program, the PDM 
program, where right now, FEMA's position is that they do not 
utilize any of that money and any of those resources for 
flooding issues, before the rains come.
    I think that they ought to reconsider that and they should 
make some of that Federal money available for non-Corps of 
Engineers flood control and levies.
    In our State, and I do not know about Kansas, so this is 
what I would like to hear your thoughts on, but in our State, 
we have a lot of these little levy districts and little flood 
control districts. Some of them are cities and some of them are 
just out in the counties.
    How is the levy system in your State? Is it in good shape? 
Do you think that there might be some benefit from some of the 
local people receiving some Federal grant money to help 
maintain the levies?
    General Bunting. Sir, I would agree with that totally. We 
have had several meetings on levies because the worst part of 
the floods is sometimes with 500-year floods people did not 
realize they were in a flood plain and so they get really hurt 
by that.
    I think our levies are in decent shape, but any kind of 
help would be great because those communities have been hard 
pressed with all of our storms and it is hard to find out just 
who owned the levy, who built it initially. The maintenance of 
levies is very difficult for small communities. So I would 
fully support any initiative to improve those because it is a 
big issue.
    In a flat State like Kansas, we have a lot of water and a 
lot of levies and some of them could use some improvement.
    Senator Pryor. And I assume for some of those communities, 
really flooding is the primary risk, is that right?
    General Bunting. In Kansas, other than tornadoes, the 
primary risk that we have is flooding, yes, sir.
    Senator Pryor. Thank you, Madam Chairman. Senator Stevens.
    Senator Stevens. Thank you very much.
    I am sure you realize that our State is one that is just 
disaster prone in so many ways, it is so large.
    How many times do you have disasters that are not 
recognized as national disasters in your States?
    Mr. Maxwell. For Arkansas, we probably do 10 to 12 
governor-declared disasters for every presidential request.
    Mr. Sellers. California is certainly 10 to 20, at least.
    General Bunting. I say the same for Kansas.
    Senator Stevens. Do you differentiate under State law 
between meeting the disaster and recovering from it, do you 
have one team working with disaster-immediate assistance and 
another in terms of long-term recovery?
    General Bunting. It depends upon the disaster but yes, sir. 
It is always the same team that is going to go out from the 
State. The recovery is often times a different skill set so the 
response team is usually different than the long-term recovery 
team.
    Mr. Sellers. The same for California although they are all 
within the Office of Emergency Services.
    Senator Stevens. It is one office, right?
    Mr. Sellers. Yes, sir, it is.
    Mr. Bassham. In Tennessee it is also.
    Mr. Maxwell. One office in Arkansas.
    Senator Stevens. What do you do in areas where they have 
had a prevalence of repeated disasters? Are you changing the 
boundaries for your flood zones? Are you re-proportioning 
warnings to the people in terms of rebuilding in areas where 
they have really a disaster-prone situation?
    Mr. Maxwell. I can speak as far as Arkansas is concerned. 
We have a State mitigation program. We utilize the Federal 
mitigation programs, but we also have a State mitigation 
program that we look very closely at repeat examples of 
flooding, the repetitive losses and try our best to do away 
with those situations.
    Mr. Bassham. In Tennessee, I believe probably the best use 
we make of mitigation money, particularly on the Federal side, 
is flood mitigation.
    Mr. Sellers. We do that in California as well with our 
mitigation funding, although building decisions are local 
decisions and that has been a big challenge for us obviously.
    Senator Stevens. They are local?
    Mr. Sellers. Yes. So it is up to the local building 
officials and local political leadership to identify the risk 
and try to mitigate it. We can do the mitigation program and 
through the mitigation program affect changes broadly.
    For example, we had 288 notices of interest for the hazard 
mitigation program as a result of the fires. Only 49 of those 
were for fires. Others were for things like flooding and so 
forth. So that can be helpful.
    Senator Stevens. What do you do, General?
    General Bunting. The same. Flood plain buy-out is a very 
common use of our hazard mitigation funds. I would just say 
that floods, I think, are the hardest disaster to do long term 
and those are very emotional when you do those buy-outs.
    Senator Stevens. Just sitting here, I would be interested 
that none of you have mentioned any concept of the insurance, 
impact of insurance in the areas of the disaster.
    What is the situation with regard to the impact of 
insurance on recovery in the disasters in what we call the 
lower 48, what happens? Do your insurers limit the number of 
recovery for a second disaster in the same area? How does that 
work with your State law?
    Mr. Maxwell. Are you talking any disaster or flooding in 
particular?
    Senator Stevens. I am talking about any disaster. We have 
the normal concepts of flood plain, but we also have areas 
where really forest fires are very prevalent from natural 
conditions. We try to limit building in those areas.
    Do you have State laws, city laws that applies to those 
areas and what do the insurers do about insuring in areas where 
there have been repeated disasters?
    Mr. Maxwell. We really do not have that problem because our 
repeat disasters are tornadoes, or floods or tornadoes, and 
they are going to be covered. Certainly we work with the 
jurisdictions to prevent repetitive loss on flooding. There is 
not a whole lot we can do about the tornado situation. They are 
going to hit where they are going to hit.
    Mr. Sellers. In California with wildfires especially, we 
are going through a process with our CAL FIRE office of 
identifying high-risk areas in the urban-wildlife interface.
    I cannot speak for our insurance commissioner. He has the 
insurance programs for the State. We would expect that would 
effect ultimately the decisions by the insurers and how they 
rate the risk in those areas and what actions are taken to 
mitigate against them.
    Senator Stevens. Are they part of your recovery concept, 
the contribution of insurance? Do you take that into effect, 
into account as you deal with an area that has been hit by a 
flood or by fire?
    Mr. Sellers. It is a major component and it is always 
insurance first for the victims. So as you go through the FEMA 
process, they are discounting any kind of insurance levels that 
are applied as well as debris management. So when we try to 
remove debris from an affected area, those proceeds, depending 
on how you structure the debris removal process, are used for 
that as well.
    Senator Stevens. How much do you allow individual 
participation for individual initiative to rebuild on their 
own? We worked out some situations where we allow people who 
are going to get coverage from a disaster to go in and rebuild 
their own places and have self-help and increase and get their 
recoveries done faster. Do you do that? Do you allow people to 
do their own work rather than have to wait for bidding and 
whatnot through the general contracting process?
    Mr. Maxwell. We do, yes.
    Mr. Bassham. Yes, sir.
    General Bunting. I think what is noteworthy too is that 
there is a lot of nonprofit organization support. The 
Mennonites, for example, come in a big way and Habitat for 
Humanity, for example. We do try to expedite the building code 
process locally, waive fees, and the governor can waive fees in 
certain areas that help with the rebuilding process and he 
typically does that after any disaster.
    Senator Stevens. Mr. Maxwell, you come from an area, from 
Senator Pryor's area that there was a James Lee Witt that 
worked out with us some far reaching processes to deal with 
sort of one stop coverage where people can go just to one 
agency and in effect have reference to all agencies and we 
worked out how people could, instead of getting rental 
allowances to go somewhere else, could actually bring rental 
trailers and bring them on their own property and start 
rebuilding immediately so they could beat the winter.
    We really had a re-assessment of how to get recovery done 
on a short period of time and lessen the actual cost of the 
recovery over the long period of time. I would hope that we 
would find somebody to work that into Federal law.
    Thank you very much, Madam Chairman.
    Senator Landrieu. Thank you. We wish you well and a short 
trip to Fairbanks.
    Thank you, Senator Stevens.
    We are going to move to the next panel in just a minute, 
but I do have a few wrap-up questions.
    One of the things that we tried to change after Hurricanes 
Rita and Katrina was the program that lent loans to public 
entities for their operating expenses.
    Do you all have anything you want to share on the record 
about how that has been improved? Did your cities or counties 
get the loans necessary to keep their operations going? Are 
there repayments schedules reasonable? Do you have anything you 
want to share on community loan programs?
    Mr. Maxwell. We had no experience with it.
    Mr. Bassham. We do not either but I would say that one 
thing that had not been mentioned much here today is the SBA 
small business.
    Senator Landrieu. Thank you for bringing that up.
    Mr. Bassham. The work that was done in Tennessee through 
the joint efforts of FEMA and TEMA to put together disaster 
field offices out to the public, some of them are mobile, some 
of them are fixed for a period of time, and SBA was a large 
player. They were represented in every one of these and they 
made themselves available and they really reached out. I would 
like to really plug those guys. They did good work out there.
    Senator Landrieu. Thank you. And if you could submit, Mr. 
Bassham, if you do not mind, some more information about the 
SBA because we, after those two storms, really leaned hard for 
them to come up with a new response plan and we would like to 
have some information as to whether that is working or not.
    Mr. Bassham. I can provide that.\1\
---------------------------------------------------------------------------
    \1\ The information provided by Mr. Bassham appears in the Appendix 
on page 97.
---------------------------------------------------------------------------
    Senator Landrieu. We appreciate that.
    Anything else about SBA or community loan program that 
anybody might want to mention or say, good or bad or otherwise?
    General Bunting. I would just echo. SBA has been successful 
for us and we can provide detail on that.
    Mr. Maxwell. I would echo that as well.
    Mr. Sellers. In California, also SBA has been effective in 
the past fires and present fires.
    We do some of the advance funding for communities. We did 
some for debris removals, particularly for San Diego County and 
San Bernardino County and the City of San Diego. To get the 
debris removal process expedited was essential in forwarding 
that money to those communities.
    Senator Landrieu. And just to be clear on the record, you 
all said and each of you I would like for you to say it again 
for the record, besides these storms that took place or floods 
or disasters that were declared either Federal emergencies or 
disasters, how many State-declared disasters did you have for 
every one of these approximately?
    I think you all gave those numbers to Senator Stevens. 
Could you just repeat them for the record, just to get a 
relative number between Federally declared disasters in a year 
in your State and State-declared disasters, approximately what 
it would be?
    General Bunting. Approximately for Kansas it would be 10 to 
12 disasters.
    Senator Landrieu. Ten to 12 for every one Federal disaster?
    General Bunting. Yes.
    Mr. Sellers. I would say in California, I would estimate at 
least about 15.
    Mr. Maxwell. Similar in Arkansas, 10 to 15.
    Mr. Bassham. It is probably less in Tennessee. I would say 
five or six a year on an average, something like that.
    Senator Landrieu. Do each of your States have any kind of 
emergency funding set aside to take care of State and Federal 
emergencies to do their part of the Federal emergency? Do they 
have rainy day funds or emergency funds? How does it work, Mr. 
Maxwell, in Arkansas?
    Mr. Maxwell. We have the governor's disaster funds. There 
is an amount set up for public assistance and an amount for 
individual assistance.
    Senator Landrieu. And is there a requirement that that be a 
certain percentage of the budget?
    Mr. Maxwell. It is established in law. The amount, I think 
it is $4 million for public assistance, $3 million for 
individual assistance and $.7 million for mitigation right now.
    Senator Landrieu. This has been an excellent panel. We 
almost certainly will keep the record open for any other 
comments that you all want to submit, but because our time is 
short, I would like to move now to Deputy Administrator 
Johnson.
    Thank you so much.
    Thank you, Mr. Johnson, and congratulations on your 
confirmation and thank you for the attention you have given to 
our ongoing recovery in Louisiana and Mississippi along the 
Gulf Coast and we still have quite a ways to go, as you know, 
but we appreciate your help.
    I do not think you need an introduction before this panel. 
You have been here several times before so why do we not just 
go right to your opening statement and then we will have a 
round of questions.

 STATEMENT OF HARVEY E. JOHNSON, JR.,\1\ DEPUTY ADMINISTRATOR, 
            U.S. FEDERAL EMERGENCY MANAGEMENT AGENCY

    Mr. Johnson. Thank you, Chairman Landrieu and Members of 
the Committee.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Johnson appears in the Appendix 
on page 75.
---------------------------------------------------------------------------
    I am pleased to be here this afternoon. As you know, I am 
FEMA's Deputy Administrator and recently confirmed and I 
appreciate your support for that.
    The change in FEMA, I think, is self-evident. It is not 
just from FEMA's view. In fact, this past Monday, an editorial 
appeared in two local Illinois newspapers that were entitled, 
``Disaster agencies got it right in Illinois.''
    The editorial notes that Federal, State, area, local and 
other disaster aid agency took a public beating in the wake of 
the New Orleans Hurricane Katrina catastrophe.
    The impression of millions of Americans got of FEMA was a 
disaster. Now, we tend to regard all disaster aid agencies with 
a jaundice eye. We are pleased to say that the disaster aid 
agencies from the Federal Government on down have performed 
wonderfully in the aftermath of recent tornadoes, raging winds, 
and flooding.
    The article goes on to praise FEMA, State and local 
agencies. Emergency agencies worked in a recalibrated and a 
coordinated manner amid confusion.
    The editorial appears in Illinois, but I feel confident it 
could just as well have appeared in Iowa, California, Arkansas, 
Kansas, Tennessee, Oklahoma, or any of the other communities 
where we have responded to disasters over the last 2 years. It 
summarizes the progress that we are here to review and to 
evaluate today. It also substantiates from a FEMA perspective 
the headline in another Illinois paper that read, flood victims 
say FEMA is doing a heck of a job.
    The improved level of performance did not just happen by 
natural evolution. It is the product of experienced leaders at 
the Federal, State and local level. It is the investment in 
resources, renewed focus on partnerships at every level of 
government and the dedicated efforts of thousands of FEMA 
professional men and women.
    The transformation in FEMA began in July 2006 with the 
confirmation of David Paulison as the Administrator of FEMA. He 
laid out a vision for a new FEMA and he committed to making 
FEMA the Nation's preeminent emergency management and 
preparedness agency. That vision contained two very important 
elements.
    First, it put forward a new focus of leaning forward to 
provide more effective assistance to disaster victims and 
communities.
    And second, it identified specific objectives to achieving 
the vision for FEMA and these goals included marshaling an 
effective national response, speed the recovery of communities, 
strengthen our partnership at the Federal level and with States 
and the private sector, and instill public confidence.
    Over the past 24 months that vision driven by FEMA 
leadership in Washington and at every one of our regional 
offices has guided our plans and our actions.
    We are building a new FEMA which is dedicated to delivering 
the support and the aid necessary without bureaucratic red tape 
to provide essential services.
    We are focusing our partnerships across the Federal 
departments and agencies with States and local communities and 
non-government and volunteer agencies, with the private sector 
and with individual citizens, all to marshal by cooperation and 
collaboration more effective national response.
    The national response framework released earlier this year 
has helped to established just how we all work together when 
disaster strikes. These efforts have accelerated the speed of 
recovery for individuals and communities. It is now common for 
us to have the needed supplies pre-positioned, for us to be 
able to register disaster victims immediately upon the 
President's declaration of disaster and to have the first 
assistance payment to an individual within 24 hours.
    And by these consistent efforts, we believe that we are 
instilling public confidence in FEMA and the broader emergency 
management community.
    In striving to achieve the vision for new FEMA, we are 
supported by President Bush and by Secretary Chertoff and by 
you, Madam Chairman, and your colleagues in Congress, all of 
who have seen first hand the needs on the ground and those who 
have provided us with additional support and the resources 
which can better accomplish our missions.
    The return on investment in FEMA has been to the benefit of 
the Nation in terms of more effective response and recovery to 
disasters. And actions speak louder than words so let me give 
you a few specific examples.
    In May 2007 FEMA responded to the devastated community of 
Greensburg and set the bar for personal involvement by a FEMA 
regional administrator as the leadership of our on-the-ground 
forces in helping to coordinate the Federal response with our 
State and local partners.
    FEMA went on further in October 2007 when California 
experienced severe wildfires. FEMA and California together 
signed a charter for the first time, committing to an effect 
recovery effort. And for the first time we established a series 
of State-led task forces on housing, on air quality, on debris 
and tribal issues.
    I was particularly pleased to hear Senator Boxer comment 
the following: An important difference between FEMA during 
Katrina and now is that they have actually learned how to bring 
people together as a team.
    We have been active in a series of events across Arkansas 
this year. Storms and tornados had struck over a period of 
weeks in early May, and FEMA responded by providing more than 
$2.5 million in aid just in the first 3 weeks after that 
disaster.
    Similarly when storms and tornadoes struck in February in 
Tennessee, FEMA worked with State and local officials to reach 
out in relatively rural communities. Using mobile registration 
centers, online capabilities and expanded phone centers, we 
registered more than 3,000 households and distributed more than 
$3.6 million in assistance in just the first 2 weeks after 
those disasters.
    In one of the largest events since Hurricane Katrina, FEMA 
is on the ground today responding to flooding across the 
Midwest. Beyond successful response efforts across five States, 
we are focused now on recovery and we are there to stay as 
communities begin to recover and rebuild. As of the first of 
this month, FEMA has already provided more than $181 million in 
financial aid to residents in these communities.
    In addition, the national housing task force was 
established to support State needs and field operations as they 
work to provide temporary long-term housing.
    As you can see, FEMA, with your help and that of the 
partners at the Federal, State and local level has made 
significant progress since Hurricane Katrina in building the 
emergency management system, an agency that America can rely on 
and be proud of.
    That is not to say that we are not without challenges. 
Within FEMA we continue to strengthen our work force both in 
its numbers and its better training. With intent to provide 
better and more effective services to disaster victims, we are 
focused soon on beginning the process of regulatory and policy 
reform and across the Nation will bring a sharper focus on the 
direction we should take in the Nation with regard to disaster 
housing next week, as we release the national disaster housing 
strategy.
    Amid success and challenges, FEMA remains committed to 
provide effective assistance to disaster victims and 
communities.
    I am prepared to respond to your questions.
    Senator Landrieu. Thank you. I do have several questions.
    As you know, the Homeland Security Committees, both in the 
House and the Senate, right after Hurricanes Katrina and Rita 
passed a piece of reform legislation that provided new tools to 
FEMA. There are some of those tools that were not included in 
that legislation that I am continuing to work on, but there 
were some new authorities given to FEMA.
    Can you testify right now what parts of that law were most 
helpful to you in building the new FEMA that you are beginning 
to describe? If one or two or three things come to mind now, 
you can share them; and if not, if you would have you or your 
staff give us in writing, let us say, the top 10 new 
authorities that you believe have helped you to become a new 
FEMA.
    Mr. Johnson. The PKEMRA Act was a very important piece of 
legislation to FEMA and it helped to broaden and refine the 
mission of FEMA beyond just the response and recovery. It was 
particularly helpful to define our role in preparedness as it 
brought elements of the department of preparedness into FEMA.
    So I think one of the strongest things that we are doing, 
and Mr. Maxwell talked about it just a few minutes ago, is the 
focus on preparedness. Mr. Maxwell is part of a working group 
that has represented State and local level members who are 
beginning to build, for the first time in our Nation, an 
integrated preparedness system, integrated planning system.
    And so with the work and with the help of NEMA and IAM and 
other representatives, it will not be long before we will be 
able to plan for events in a common way across America from 
Maine to Florida to California. With the common terminology, 
common terms of reference, it will make it much easier at the 
region level to integrate Federal, State and local plans and be 
better prepared for disasters.
    As you all know well, in Katrina in Louisiana and 
Mississippi, case management is a very important issue. As we 
talk about the national disaster housing strategy, an issue 
that you pointed out, is that it used to be OK just to provide 
a housing unit and that is not the success any more. It is 
those services that supports that disaster victim that become 
as important as providing a housing unit.
    And so PKEMRA gave FEMA for the first time authorities to 
get into case management and beginning to work that and 
understand that better by working with the Department of Health 
and Human Services and also right now, Louisiana and 
Mississippi, as we refine a contract that they continue case 
management beyond that which expired about 2 months ago.
    We have authorities inside FEMA. One of the comments that 
came up from Kansas is the talk about the FEMA member, our 
disaster reserve work force and how do we acquire the right 
numbers of people in FEMA; and when we have the right numbers, 
how do we really train them and professionally develop them in 
ways that we have not done previously before PKEMRA and before 
Mr. Paulison's focus on improving the professional development 
of people inside FEMA.
    And so you are going to see the benefit of that. It 
sometimes takes a while for it to provide results, but we are 
focusing more on how we hire people, select people and a number 
of authorities in that law gave us a greater range to be able 
to do that.
    Senator Landrieu. I would like to follow up because General 
Bunting mentioned this again as still a problem, the turn over 
within FEMA's public assistance which was a real problem that 
showed itself in Hurricanes Rita and Katrina.
    So could you elaborate again, for the record, what you all 
have done to stabilize your force to make sure that those 
professional full-time or part-time workers are familiar to the 
local officials that may or may not be dealing with and have we 
made any progress on the idea that some of us have had about a 
trained and ready reserve that could step in, in a catastrophic 
disaster that are familiar with the rules, understand the 
rules, familiar with the territory in which they are working 
and the people that are working with? Are we making any 
progress in that regard?
    Mr. Johnson. I think we are, and of course, progress never 
comes at the pace you expect or that I do or that Mr. Paulison 
does. But let me mention a couple of things in particular.
    As your charts show, the challenges in Hurricane Katrina 
were just catastrophic. The length, 3 years now into recovery 
from Hurricane Katrina and individual assistance and public 
assistance, initially that was very challenging for the FEMA 
work force to be deployed into that area that was still 
devastated and not even have good places for those people to 
stay as well.
    So FEMA employees as much as contractors rotated through 
with far greater frequency than we were happy with. And as you 
know, Gil Jamison, who was our assistant administrator for Gulf 
Coast recovery at the time, worked both in Mississippi and 
Louisiana and we worked both with our contractors and at our 
own work force to lengthen the stays before they might rotate 
out of State.
    We also increased the number of local hires, and as you 
know, we have a number of people at our transition recovery 
office in Louisiana that are Louisiana residents and themselves 
experienced in disasters having been a disaster victim and that 
has helped us to both understand better and relate better to 
those that we need to provide assistance to.
    The second thing I mentioned is that we recently 
established for the first time in FEMA the office of disaster 
reserve work force; and Donna Daniels, who is a member of the 
senior executive service, 30 years experience in FEMA, heads 
that brand new office and she has been able to coalesce into a 
single office oversight of all of the hiring, the training and 
the development of all of our disaster assistance employees and 
that is an area of intense focus in FEMA as we try to do a much 
better job of training and developing those employees.
    So I think across the board that we have recognized that as 
a key area. It is a challenge today in five States across the 
Midwest; and if we had a hurricane today to challenge to do 
that disaster as well as respond to a hurricane, we are focused 
on that issue and I think we are on the right road. But it is a 
road that is going to take a while to achieve the successes 
that I think we are looking for.
    Senator Landrieu. Mr. Maxwell from Arkansas raised this in 
his testimony, that in the three disasters that he spoke about, 
in the first two the response from the Federal Government was 
fairly immediate, but on the third, there was a 14-day delay.
    Can you respond to the record about why that happened from 
your perspective and will it be corrected in the future or do 
you have an explanation as to why that happened?
    Mr. Johnson. Well, let me give you a couple thoughts just 
in recollection; and then if I may, for the record, I can 
provide, if I need to, to add some additional comments, I will 
do that.
    We approach--in the declaration process when a disaster 
occurs, the question that we sometimes need to deal with is, 
what is the first resource to respond in a disaster? Is it the 
Federal dollar, the Federal resource or State and local?
    All disasters are local, but at some level we need to 
determine whether this is, in fact, a disaster that merits a 
presidential declaration and we need to formulate a 
recommendation to the President to make that determination.
    And in that process, there is often a need to look at what 
is the extent of damage in terms of houses damaged, destroyed; 
to what level they are damaged or destroyed; to look at public 
infrastructure where there is a formula in law about how we 
handle public assistance and make that determination.
    Every disaster on its face needs to be evaluated 
individually. I think in Mr. Maxwell's case, as he 
acknowledged, I believe he testified that there were about 250 
homes that were either destroyed or had major damage and that 
is about at the level that we really ask those questions about 
whether this is a disaster that merits a Presidential 
declaration or whether this is a disaster we believe is within 
the capabilities of the State.
    I think that when we have that range of disasters, those 
questions come up and it is important to get the preliminary 
damage assessments and to validate the extent of damage.
    Senator Landrieu. I want to pursue this for just a moment 
and I am going to ask the others to submit testimony in writing 
because I think this is one of the important keys.
    I want us to develop a system where when a catastrophe 
happens whether it is 50 homes that are destroyed, or 100 homes 
that are destroyed, or 250 homes that are destroyed, or 250,000 
which was our case, that there is a system that there is 
immediate action taken and the worries about who is going to 
reimburse who are settled later by the bureaucracy, but that no 
homeless person has to sleep three nights on the street or four 
nights or five nights or on our situation, 5 months, while the 
government is figuring that out.
    And I am determined to get that figured out whether it is 
something like everything under x-number of houses there is an 
automatic understanding at the local level that they will be 
reimbursed by their State so there are no questions because I 
will tell you what happens or what I think is happening and I 
am learning a lot about it.
    In a big State or a big county where there are resources, 
these things have sort of become automatic. The county realizes 
they have got a lot of assets.
    But if you are a small community out in the middle of no-
where or you are a community that has been completely 
destroyed, the mayor or the council leader or the local leader 
says, ``I do not even have enough money to pay the light bill 
next week so where am I going to get the money now to pay my 
people to do this.''
    And those first early days, I think, are very important and 
I do not think that is worked out yet and I think this is an 
example of what we are still not working out which is 
important.
    So our time is limited today, but I want to pursue this 
with the governors, with the mayors, with the county officials 
so that within 24 hours of this disaster, it becomes very clear 
to everybody whether it is a green disaster, a yellow disaster, 
or red disaster and then actions can start going.
    The hesitation in the beginning is really very harmful and 
I think we need to get that straight. That is one of the things 
that I do not think is being done correctly at this point, but 
we will follow up.
    Let me just check with my staff to see if there is anything 
else because we have to end this hearing.
    The private section, the last question, understands that it 
must get feedback from customers to determine whether they are 
meeting their customers' expectations. I do not know if FEMA 
has a disaster survey routinely done, not just to your local 
counterparts but to the tax-paying citizens themselves who have 
been recipients on the other end.
    So I understand that FEMA has finally begun a process of 
surveying individuals. Could you comment about that for the 
record and tell us what some of the feedback has been or how 
you are going about doing that, which I think is an excellent 
idea, by the way.
    Mr. Johnson. Let me give you a general comment and then 
submit to the record the actual statistics. I do not think I 
have them with me.
    But we have, at your suggestion and others, how do we know 
how well we are doing and why would we not ask questions of 
those who receive assistance from FEMA, and so we have, in 
fact, begun to ask several specific questions.
    We ask these questions about 30 or 45 days after they 
register. So it is a time for them to register with FEMA, to 
receive services or not from FEMA, qualify or not, and go 
through our process. And while I do not have the number 
specifically, in general our numbers are very good.
    We are receiving more than 80 percent positive responses. 
We have done this in several disasters since we began this 
survey process and I think that it has become useful 
information for us both in terms of refining our processes and 
understanding where some of our challenges are and also to 
convey that, as I think we have seen in these States who 
testified today and as I think you will find in Illinois and 
Iowa and Wisconsin and Missouri with the Midwest floods, as I 
have talked about these newspaper articles, people who 
interface with FEMA today generally come away with a much more 
positive impression than they have had 2 years ago.
    It is very difficult to make that transition for people who 
have just seen us and touched us in Hurricane Katrina. So I 
think we are going to learn a lot from these surveys and I will 
be glad to provide that detailed information to your staff.
    Senator Landrieu. OK. And let us say the record will stay 
open for 14 days for anyone that wants to submit anything to 
the record and I will look forward to continuing to work with 
the first panel and others to continue to craft a better, more 
comprehensive response to catastrophic disasters, the scale of 
which would be something for Hurricanes Katrina and Rita, the 
Northridge earthquakes. I mean, there are some catastrophes 
that have taken place in this country where the tools that we 
have discussed today are just wholly inadequate for what has to 
be redone. Rebuilding a major metropolitan area comes to mind.
    There are serious threats that we are all too familiar with 
that could potentially happen. Earthquakes in certain areas, 
Category 4 or 5 hurricanes hitting certain metropolitan areas. 
And besides the housing strategy that has not yet been 
submitted, from what I understand it may be--how adequate it 
will be, I do not know--we have a lot of other work to do with 
coordinating Federal agencies like health, like mental-health, 
human services, HUD, etc., in that long-term rebuilding process 
that is still going on in the Gulf Coast and in some other 
areas of the country.
    So we will leave this open for 14 days.
    Do you have any closing comments, Mr. Johnson?
    Mr. Johnson. I just want to thank you again for this 
hearing today, and I think the chance to hear from four States 
that I think are representative both in terms of things where 
things have gone well and where we continue to have challenges.
    And just to say that from a FEMA perspective, we work with 
each of these gentlemen that you have heard from today and we 
value their opinions and we recognize where we need to make 
improvements and I believe we have got a track record doing 
that.
    You have provided us an opportunity both to recognize the 
challenges and an opportunity that you have given recognition 
where we succeeded, and so I appreciate your support and your 
view on our performance.
    Senator Landrieu. Thank you. The meeting is adjourned.
    [Whereupon, at 3:51 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T4128.001

[GRAPHIC] [TIFF OMITTED] T4128.002

[GRAPHIC] [TIFF OMITTED] T4128.003

[GRAPHIC] [TIFF OMITTED] T4128.004

[GRAPHIC] [TIFF OMITTED] T4128.005

[GRAPHIC] [TIFF OMITTED] T4128.006

[GRAPHIC] [TIFF OMITTED] T4128.007

[GRAPHIC] [TIFF OMITTED] T4128.008

[GRAPHIC] [TIFF OMITTED] T4128.009

[GRAPHIC] [TIFF OMITTED] T4128.010

[GRAPHIC] [TIFF OMITTED] T4128.011

[GRAPHIC] [TIFF OMITTED] T4128.012

[GRAPHIC] [TIFF OMITTED] T4128.013

[GRAPHIC] [TIFF OMITTED] T4128.014

[GRAPHIC] [TIFF OMITTED] T4128.015

[GRAPHIC] [TIFF OMITTED] T4128.016

[GRAPHIC] [TIFF OMITTED] T4128.017

[GRAPHIC] [TIFF OMITTED] T4128.018

[GRAPHIC] [TIFF OMITTED] T4128.019

[GRAPHIC] [TIFF OMITTED] T4128.020

[GRAPHIC] [TIFF OMITTED] T4128.021

[GRAPHIC] [TIFF OMITTED] T4128.022

[GRAPHIC] [TIFF OMITTED] T4128.023

[GRAPHIC] [TIFF OMITTED] T4128.024

[GRAPHIC] [TIFF OMITTED] T4128.025

[GRAPHIC] [TIFF OMITTED] T4128.026

[GRAPHIC] [TIFF OMITTED] T4128.027

[GRAPHIC] [TIFF OMITTED] T4128.061

[GRAPHIC] [TIFF OMITTED] T4128.062

[GRAPHIC] [TIFF OMITTED] T4128.063

[GRAPHIC] [TIFF OMITTED] T4128.064

[GRAPHIC] [TIFF OMITTED] T4128.065

[GRAPHIC] [TIFF OMITTED] T4128.066

[GRAPHIC] [TIFF OMITTED] T4128.067

[GRAPHIC] [TIFF OMITTED] T4128.068

[GRAPHIC] [TIFF OMITTED] T4128.069

[GRAPHIC] [TIFF OMITTED] T4128.070

[GRAPHIC] [TIFF OMITTED] T4128.071

[GRAPHIC] [TIFF OMITTED] T4128.072

[GRAPHIC] [TIFF OMITTED] T4128.073

[GRAPHIC] [TIFF OMITTED] T4128.074

[GRAPHIC] [TIFF OMITTED] T4128.075

[GRAPHIC] [TIFF OMITTED] T4128.076

[GRAPHIC] [TIFF OMITTED] T4128.077

[GRAPHIC] [TIFF OMITTED] T4128.031

[GRAPHIC] [TIFF OMITTED] T4128.032

[GRAPHIC] [TIFF OMITTED] T4128.033

[GRAPHIC] [TIFF OMITTED] T4128.034

[GRAPHIC] [TIFF OMITTED] T4128.035

[GRAPHIC] [TIFF OMITTED] T4128.036

[GRAPHIC] [TIFF OMITTED] T4128.037

[GRAPHIC] [TIFF OMITTED] T4128.038

[GRAPHIC] [TIFF OMITTED] T4128.039

[GRAPHIC] [TIFF OMITTED] T4128.040

[GRAPHIC] [TIFF OMITTED] T4128.041

[GRAPHIC] [TIFF OMITTED] T4128.042

[GRAPHIC] [TIFF OMITTED] T4128.043

[GRAPHIC] [TIFF OMITTED] T4128.044

[GRAPHIC] [TIFF OMITTED] T4128.045

[GRAPHIC] [TIFF OMITTED] T4128.046

[GRAPHIC] [TIFF OMITTED] T4128.047

[GRAPHIC] [TIFF OMITTED] T4128.048

[GRAPHIC] [TIFF OMITTED] T4128.049

[GRAPHIC] [TIFF OMITTED] T4128.050

[GRAPHIC] [TIFF OMITTED] T4128.051

[GRAPHIC] [TIFF OMITTED] T4128.052

[GRAPHIC] [TIFF OMITTED] T4128.053

[GRAPHIC] [TIFF OMITTED] T4128.054

[GRAPHIC] [TIFF OMITTED] T4128.055

[GRAPHIC] [TIFF OMITTED] T4128.056

[GRAPHIC] [TIFF OMITTED] T4128.057

[GRAPHIC] [TIFF OMITTED] T4128.058

[GRAPHIC] [TIFF OMITTED] T4128.059

[GRAPHIC] [TIFF OMITTED] T4128.060

                                 <all>

</pre></body></html>
